S' ■ v

-V

*

t

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

\_TEL. 504-310-770<t^
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

February 20, 2019
#1790019

Mr. Juan Francisco Turcios
CID Jester III Prison
3 Jester Road
Richmond, TX 77406-0000
No. 19-10010

Juan Turcios v. Lorie Davis, Director
USDC No. 3:16-CV-2809

Dear Mr. Turcios,
We are in receipt of your letter dated February 14, 2019
regarding your motion for a certificate of appealability (COA).
The original COA was received and filed on January 15, 2019 and
the addendum was received on January 23, 2019.
The motion and
addendum have been submitted to the Court for consideration.
You will be notified once the Court issues a decision.
Since the original COA was received and filed, we will take no
action on your "different" petition for certificate of
appealabilty as you advised in your letter.
V*

Sincerely,
LYLE W. CAYCE, Clerk
By:

____________

Claudia N. Farrington, Deputy Clerk
504-310-7706
cc:

Mr. Jon Rodney Meador

-4

-1

I'

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

December 31, 2019
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-11292

In re: Juan Turcios
USDC No. 3:16-CV-2809

The court has granted an extension of time to and including January
31, 2020 to return a sufficient petition and to pay the filing fee
o file motion to proceed in forma pauperis in this case.

Sincerely,
LYLE W. CAYCE, Clerk

~}f_By:

Claudia N. Farrington, Deputy Clerk
504-310-7706
Mr. Juan Francisco Turcios

^•VftyVcUvl -

1

Mniteb States ©t Strict Court
Jjtortljern 33Bistrict of CexaS
Dallas. Division
October 4. 201 8
Juan Francisco Turcios
#001790019
TDCJ Jester 111 Unit
3 Jester Road
Richmond, TX 77406

Re: Your correspondence received in the U.S. District Clerk's Office on 10/3/20 J 8
Case No./Style: 3:16-cv-02809-N-BN Turcios v. Davis
Dear Mr. Turcios,
The. Clerk's Office did not receive your Objections. A copy of your docket sheet is enclosed
with this letter.

Sincerely,
Deputy Clerk - REC

1

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
. JUAN ERANCISCQTURCIOS
(TDCJ No. 1790019), ^

-§

Petitioner,
V.
LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§

No. 3:16-cv-2809-N

ORDER
The Court has considered Petitioner’s second and third Motions for Relief from
Judgment Pursuant to Rule 60(b)(6) [Dkt. Nos. 34 & 35], which are substantively the
same, and through which Petitioner asserts that the Court failed to consider his
objections to the magistrate judge’s findings, conclusions, and recommendation (the
“FCR”). The extended deadline to file objections was August 17, 2018. See Dkt. No.
28. And Petitioner has attached to his second motion evidence that he placed his
_

..objections into the prison mail system on August .16, 2018 and that they were mailed
to this Court on August 17, 2018. See Dkt. No. 34 at 36. Nevertheless, those objections
were not docketed prior to the Court’s entering, on August 31, 2018, its order
accepting the FCR and judgment dismissing this action. See Dkt. Nos. 31 & 32. For
that reason, the Rule 60(b)(6) motions are DENIED.
Even so, the Court has now reviewed the objections Petitioner makes to the
FCR. And, after reviewing de novo those portions of the FCR to which objection was

/

made, the Court remains of the opinion that the FCR is correct. The late-received
objections therefore have no impact on the Court’s judgment dismissing this action
with prej udice.

4

SO ORDERED.
SIGNED this 30th day of November, 2018.

r
DAVID C. GODBEY
UNITED STATES DISTRICTJUDGE

2

A

QBniteti £§>tatess Court of Appeals:
for tfje jftfti) Circuit
No. 19-10010
CM
O

ea

CM
CM
O

Juan Francisco Turcios )
Petitioner—Appellant,

■o

il

versus

CD

as

Q

<0
O)
CO

Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division >

0.

CM
tO
LD
to

r^

to
to

o
o

Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:16-CV-2809

4-;

c

0

E

3
O

o
O

ON PETITION FOR REHEARING EN BANC
Before Jones, Costa, and Wilson, Circuit Judges,

o
o
o

Per Curiam:

O)

(\]/Treating
i

cd
CD

O

the Petition for Rehearing En Banc as a Motion for
Reconsideration, the Motion for Reconsideration is DENIED. No
member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.

19-10010

( )

c\j

o
£5!

■'tf
CM
CM
O

Treating the Petition for Rehearing En Banc as a Motion for
Reconsideration, the Motion for Reconsideration is DENIED. The
court having been polled at the request of one of the members of the
court and a majority of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R. App. P. and 5th
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

T3

il
CD
CO

Q
CM

CD
03
CO

0.
r"-

CM
LO

in
LO
LO
LO

o
o

4-3

c

CO

E

3
O

o
Q

o
o
o
03
CO
C/3
CO

o

2

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

March 01, 2021
#1790019
Mr. Juan Francisco Turcios
CID Jester III Prison
3 Jester Road
Richmond, TX 77406-0000
No. 19-10010

Turcios v. Lumpkin
USDC No. 3:16-CV-2809

Dear Mr. Turcios,
We received your letter and your request for leave and file the
addendum received on February 1, 2021. Your petition for rehearing
received on February 1, 2021 was filed and submitted to the Court.
The Court denied the petition for rehearing en banc on February
24, 2021. A copy is enclosed.

Sincerely,
LYLE W. CAYCE, Clerk
By:
Claudia N. Farrington, Deputy Clerk
504-310-7706
cc:

Mr. Joseph Peter Corcoran

Case: 19-10010

Document: 00515713754

Page: 1

Date Filed: 01/21/2021

®ntteb States Court of Appeals
for tljr Jftftlj Circuit
No. 19-10010

Juan Francisco Turcios,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:16-CV-2809
ORDER:
IT IS ORDERED that the appellant's motion for an extension of
thirty (30) days, or, to and including January 27, 2021, to file a motion for
reconsideration is GRANTED.
/s/ Gregg Costa
Gregg Costa
United States Circuit Judge

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

December 28, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-10010

Turcios v. Lumpkin
USDC No. 3:16-CV-2809

Enclosed is an order entered in this case.
Sincerely,
LYLE W. CAYCE, Clerk
^paeAotiM^piLefe-

By:

Roeshawn Johnson, Deputy Clerk
504-310-7998
Mr. Jon Rodney Meador
Ms. Karen S. Mitchell
Mr. Juan Francisco Turcios

fHntfeti States Court of Appeals
for tfjc Jftftf) Circuit
No. 19-10010

Juan Francisco Turcios,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:16-CV-2809

ORDER:
Juan Francisco Turcios, Texas prisoner # 1790019, pleaded guilty to
burglary of a habitation and aggravated assault with a deadly weapon and
received a sentence of 20 years in prison. He seeks a certificate of
appealability (COA) to appeal the district court’s denials of his 28 U.S.C.
§ 2254 petition and of his Federal Rule of Civil Procedure 60(b) motion
primarily challenging the district court’s failure to consider his objections to
the magistrate judge’s report before denying relief. He argues that the
district court erred by rejecting his claims that (1) his guilty plea was not
knowing and voluntary, (2) that counsel was laboring under a conflict of

6-5

No. 19-10010

interest, (3) that counsel rendered ineffective assistance in numerous
respects, (4) that the Government and the district court breached the plea
agreement, (5) that there were infirmities in the state habeas proceedings,
and (6) that his sentence was void. Regarding the § 2254 proceeding, Turcios
asserts that the State failed to submit a complete state court record as it was
required to do. Turcios’s motion to supplement the record on appeal is
DENIED. See Theriot v. Par. of Jefferson, 185 F.3d 477, 491 n.26 (5th Cir.
1999). His motion for leave to file a supplemental COA motion and
supporting brief are GRANTED.
As an initial matter, this court will not consider those § 2254 claims
that are raised for the first time in Turcios’s COA motion in this court. See
Black v. Davis, 902 F.3d 541, 545 (5th Cir. 2018); see also Henderson v.
Cockrell, 333 F.3d 592,605 (5th Cir. 2003). A COA may be issued only if the
applicant “has made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). A petitioner satisfies this standard by
showing that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues
raised deserve encouragement to proceed further. Miller-El v. Cockrell, 537
U.S. 322, 327 (2003). Where, as here, the district court denied relief on the
merits, a petitioner must establish that “reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.”
Slack v. McDaniel, 529 U.S. 473,484 (2000); see also Hernandez v. Thaler, 630
F.3d 420, 428 (5th Cir. 2011).
This court need not address Turcios’s argument that his § 2254
claims were not barred by the statute of limitations because, even if they were
not, he fails to show that a COA should issue. See Cardenas v. Stephens, 820
F.3d 197, 201 (5th Cir. 2016). Because Turcios has not made the requisite
showing to obtain a COA on his constitutional claims, a COA is DENIED.

-s
2

vloboeu-v G o
See —

A

CLtors VC^T^

Se,e Also -Ve^fv^ C.-=
\A wli f*v.\ ^<W

record
W\A^

Orc^c

Vic

w

CiVu^'A t Mm record

Y>^ V'aA.
VWv \ s

t>r*^ V. ^ft/AjV^

90

^r-rt^ ^e\oe*-AcA.t>U. (w^o^ ^<X'\ &"A.

v

.

■.„/

>.:

.

,;". ••'vj

/
/

~Tr»A\ <Vv^

CWrNC >re.coJ<Av
\s ^rA o£ ujVoV^

e_o\<A«/\ca. Cu\^ %^>r*Lr\ \ ^ \ ^
/lO V V\)U*J
V MVtsV^S "iA ►'xort- co*vW©\rVS^ a.HO"^ff)

No. 19-10010

Gregg
United States Circuit Judge

3

H

•'.•V

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
-JUANF-RAN G IS C OT-URCI OS
(TDCJ No. 1790019),

§
§
§
§
§
§
§
§
§
§
§
§

Petitioner,
V.
LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

No. 3:16-cv-2809-N

ORDER ACCEPTING FINDINGS, CONCLUSIONS, AND
RECOMMENDATION OF THE UNITED STATES MAGISTRATE
JUDGE AND DENYING A CERTIFICATE OF APPEALABILITY
The United States Magistrate Judge made findings, conclusions, and a
recommendation in this case. No objections were filed. The District Court reviewed
fVto
-r*vrvrvr\cprl
1/i.J.V/

-finrlino*c

1.11J.VA111 U0.

/^n-n^lncm-no

\-r\J XXV-'X MUXVXIIJ j

pnrj

U.11U

vo^Arnmonrlpfinn
AJl.

X Vy V

fXr* nlpm
Lf J.UXX1

XVX

orrnv
V/X X VX •

TT’iXXX
n rl
i n o*
V4.XXX tL

X

none, the Court ACCEPTS the Findings, Conclusions, and Recommendation of the
United States Magistrate Judge.
Considering the record in this case and pursuant to Federal Rule of Appellate
Procedure 22(b), Rule 11(a) of the Rules Governing §§ 2254 and 2255 proceedings,
\

and 28 U.S.C. § 2253(c), the Court DENIES a certificate of appealability. The Court
\

^

adopts and incorporates by reference the Magistrate Judge’s Findings, Conclusions,
and Recommendation filed in this case in support of its finding that Petitioner has
failed to show that reasonable jurists would find “it debatable whether the petition

1

ZSX&t S'I

[currently] states a valid claim of the denial of a constitutional right” and “debatable
whether [this Court] was correct in its procedural ruling” - that Petitioner’s habeas
—apphcation-is-baT-redbythestatute-Qf-hmitationSv-»S'/a€-/e--o.McZ)aftteC-h-29-U.S.473I
484 (2000).1
In the event that Petitioner will file a: notice of appeal, the Court notes that he
must either pay the full appellate filing fee ($505.00) or move for leave to proceed in
forma pauperis on appeal.
SO ORDERED this 31st day of August, 2018.

DAVID C. GODBEY
^7
UNITED STATES DISTRICT JOTGE

1 Rule 11 of the Rules Governing §§ 2254 and 2255 Cases, as amended effective bn
December 1, 2009, reads as follows:
(a) Certificate of Appealability. The district court must issue or deny a
certificate of appealability when it enters a final order adverse to the applicant. Before
entering the final order, the court may direct the parties to submit arguments on whether a
certificate should issue. If the court issues a certificate, the court must state the specific issue
or issues that satisfy the showing required by 28 U.S.C. § 2253(c)(2). If the court denies a
certificate, the parties may not appeal the denial but may seek a certificate from the court of
appeals under Federal Rule of Appellate Procedure 22. A motion to reconsider a denial does
not extend the time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time
to appeal an order entered under these rules. A timely notice of appeal must be filed even if
the district court issues a certificate of appealability.
2

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
JUAN-FRA-NCIS C O TURCIOS
(TDCJ No. 1790019),
Petitioner,
V,
. LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional lnstitutions Division,
Respondent.

-§
§
§
§
§
§
§
§
§
§
§
§

No. 3:16-cv-2809-N

JUDGMENT
This action came on for consideration by the Court, and the issues having been
duly considered and a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED that Petitioners application for
p Tim
f r\T no nooc pn-miio 10 Tih’.NJTXJJ-/
h.Ti
*T i-±U WJL Xi.UlL/UUO wipuo XU
.

U

JV-' ’

*

The Clerk shall transmit a true copy of this Judgment and the Order accepting
the Findings, Conclusions, and Recommendation of the United States Magistrate
Judge to Petitioner.
SIGNED this 31st day of August, 2018.

V

yiv-

DAVID C. GODBEY
UNITED STATES DISTRICT JUDGE

*
♦ •

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 1 of 23 PagelD 236

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
JUAN FRANCISCO TURCIOS
(TDCJ No. 1790019),
Petitioner,
V.
LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

No. 3:16-cv-2809-N-BN

FINDINGS, CONCLUSIONS, AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
Petitioner Juan Francisco Turcios, a Texas inmate, has filed a pro se application
for writ of habeas corpus under 28 U.S.C. § 2254. See Dkt. Nos. 3, 4, & 5. This resulting
action has been referred to the undersigned United States magistrate judge for pretrial
management under 28 U.S.C. § 636(b) and a standing order of reference from United
States District Judge David C. Godbey. The State filed a response opposing relief. See
Dkt. No. 12. And Turcios obtained leave to file - and did file - an out-of-time reply
brief. See Dkt. Nos. 17, 18, 19, 20, & 24. For the reasons explained below, the Court
should deny Turcios’s habeas petition.
Applicable Background
“Without the benefit of a plea-bargain agreement, Juan Francisco Turcios
pleaded guilty to the offenses of burglary and aggravated assault with a deadly
weapon. The trial court sentenced him to twenty years’ imprisonment for each offense,

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 2 of 23 Page ID 237

to be served concurrently.” Turd os v. State, Nos. 05-12-00839-CR & 05-12-00840-CR,
2013 WL 5536939, at *1 (Tex. App. - Dallas Oct. 7, 2013, pet ref d); see State v. Turcios,
Nos. F11-70886-P & F11-70896-P (203d Jud. Dist. Ct., Dallas Cty., Tex.). On direct
appeal, Turcios claimed that “he was denied effective assistance of counsel to prepare
a motion for new trial challenging the constitutionality of his custodial sentence” —
arguments that the state court of appeals found unavailing in affirming the underlying
criminal judgments. Turcios, 2013 WL 5536939, at *1.
The Texas Court of Criminal Appeals (the “CCA”) refused discretionary review.
SeeTurciosv. State, PD-048-14 &-049-14 (Tex. Crim. App. Apr. 2, 2014). And the CCA
denied Turcios’s state application for writ of habeas corpus without a written order on
the trial court’s findings without a hearing. See Ex parte Turcios, WR-83,155-01 & -02
(Tex. Crim. App. June 22, 2016).
In his timely-filed federal habeas application, Turcios raises some 10 grounds
for relief, many of which contain multiple sub-grounds and some of which are not
cognizable.
Legal Standards
Where a state court has already rejected a claim on the merits, a federal court
may grant habeas relief on that claim only if the state court adjudication:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
-2-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 3 of 23 PagelD 238

28 U.S.C. § 2254(d).
A state court adjudication on direct appeal is due the same deference under
Section 2254(d) as an adjudication in a state post-conviction proceeding. See, e.g.,
Dowthitt v. Johnson, 230 F.3d 733, 756-57 (5th Cir. 2000) (a finding made by the CCA
on direct appeal was an “issue ... adjudicated on the merits in state proceedings,” to be
“examine[d] ... with the deference demanded by [the Antiterrorism and Effective Death
Penalty Act of 1996 (the “AEDPA”)]” under “28 U.S.C. § 2254(d)”).
A state court decision is “contrary” to clearly established federal law if “it relies
on legal rules that directly conflict with prior holdings of the Supreme Court or if it
reaches a different conclusion than the Supreme Court on materially indistinguishable
facts.” Busby v. Dretke, 359 F.3d 708, 713 (5th Cir. 2004); see also Lopez v. Smith, 574
U.S.__ , 135 S. Ct. 1, 2 (2014) (per curiam) (“We have emphasized, time and time
again, that the AEDPA prohibits the federal courts of appeals from relying on their
own precedent to conclude that a particular constitutional principle is ‘clearly
established.”’ (citation omitted)).
A decision constitutes an “unreasonable application” of clearly established
federal law if “the state court identifies the correct governing legal principle from [the
Supreme] Court’s decisions but unreasonably applies that principle to the facts of the
prisoner’s case.” Wi 11 i amsv. T aylor, 529 U.S. 362,413 (2000); see also Pierre v. Vann oy,
F.3d

., 2018 WL 2338813, at *3 (5th Cir. May 23, 2018) (a petitioner’s lack of

“Supreme Court precedent to support” a ground for habeas relief “ends [his] case” as

-3-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 4 of 23 PagelD 239

to that ground).
“For purposes of § 2254(d)(1), an unreasonable application of federal law is
different from an incorrect application of federal law.... A state court’s determination
that a claim lacks merit precludes federal habeas relief so long as fairminded jurists
could disagree on the correctness of the state court’s decision.” Harrington v. Richter,
562 U.S. 86, 101 (2011) (citations and internal quotation marks omitted). “Under §
2254(d), a habeas court must determine what arguments or theories supported or ...
could have supported, the state court’s decision; and then it must ask whether it is
possible fairminded jurists could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of [the Supreme] Court.” Id. at 102
(internal quotation marks omitted); see Evans v. Davis, 875 F.3d 210, 216 (5th Cir.
2017) (recognizing that Section 2254(d) tasks courts “with considering not only the
arguments and theories the state habeas court actually relied upon to reach its
ultimate decision but also all the arguments and theories it could have relied upon”
(citation omitted)).
The Supreme Court has further explained that “[evaluating whether a rule
application was unreasonable requires considering the rule’s specificity. The more
general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations.” Richter, 562 U.S. at 101 (internal quotation marks omitted). And
“even a strong case for relief does not mean the state court’s contrary conclusion was
unreasonable.” Id. at 102. The Supreme Court has explained that, “[i]f this standard
is difficult to meet, that is because it was meant to be,” where, “[a]s amended by
-4-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 5 of 23 Page ID 240

AEDPA, § 2254(d) stops short of imposing a complete bar on federal court relitigation
of claims already rejected in state proceedings,” but “[i]t preserves authority to issue
the writ in cases where there is no possibility fairminded jurists could disagree that the
state court’s decision conflicts with this Court’s precedents,” and “[i]t goes no further.”
Id. Thus, “[a]s a condition for obtaining habeas corpus from a federal court, a state
prisoner must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.” I d.
at 103; accord Burt v. Titlow, 571 U.S. 12, 20 (2013) (“If this standard is difficult to
meet - and it is — that is because it was meant to be. We will not lightly conclude that
a State’s criminal justice system has experienced the extreme malfunction for which
federal habeas relief is the remedy.” (internal quotation marks, brackets, and citations
omitted)).
As to Section 2254(d)(2)’s requirement that a petitioner show that the state court
adjudication “resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding,” the
Supreme Court has explained that “a state-court factual determination is not
unreasonable merely because the federal habeas court would have reached a different
conclusion in the first instance” and that federal habeas relief is precluded even where
the state court’s factual determination is debatable. Wood v. Allen, 558 U.S. 290, 301,
303 (2010). Under this standard, “it is not enough to show that a state court’s decision
was incorrect or erroneous. Rather, a petitioner must show that the decision was
-5-

V

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 6 of 23 PagelD 241

objectively unreasonable, a substantially higher threshold requiring the petitioner to
show that a reasonable factfinder must conclude that the state court’s determination
of the facts was unreasonable.” Batchelor v. Cain, 682 F.3d 400, 405 (5th Cir. 2012)
(brackets and internal quotation marks omitted).
The Court must presume that a state court’s factual determinations are correct
and can find those factual findings unreasonable only where the petitioner “rebutfs]
the presumption of correctness by clear and convincing evidence.” 28 U.S.C. § 2254(e)
(1); Gardner v. Johnson, 247 F.3d 551, 560 (5th Cir. 2001). This presumption applies
not only to explicit findings of fact but also “to those unarticulated findings which are
necessary to the state court’s conclusions of mixed law and fact.” Valdez v. Cockrell,
274 F.3d 941, 948 n.ll (5th Cir. 2001); see also Richter, 562 U.S. at 98 (“ [Determining
whether a state court’s decision resulted from an unreasonable legal or factual
conclusion does not require that there be an opinion from the state court explaining the
state court’s reasoning.”); Pondexter v. Dretke, 346 F.3d 142, 148 (5th Cir. 2003) (“a
federal habeas court is authorized by Section 2254(d) to review only a state court’s
‘decision,’ and not the written opinion explaining that decision” (quoting Neal v.
Puckett, 286 F.3d 230, 246 (5th Cir. 2002) (en banc) (per curiam))); cf. Evans, 875 F.3d
at 216 n.4 (even where “[t]he state habeas court’s analysis [is] far from thorough,” a
federal court “may not review [that] decision de novo simply because [it finds the state
court’s] written opinion ‘unsatisfactory’” (quoting Neal, 286 F.3d at 246)).
Section 2254 thus creates a “highly deferential standard for evaluating state
court rulings, which demands that state-court decisions be given the benefit of the
-6-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 7 of 23 PagelD 242

doubt.” Woodford v. Visciotti, 537 U.S. 19, 24 (2002). To overcome this standard, a
petitioner must show that “there was no reasonable basis for the state court to deny
relief.” Richter, 562 U.S. at 98. That is, a petitioner must, in sum, “show, based on the
state-court record alone, that any argument or theory the state habeas court could have
relied on to deny [him] relief would have either been contrary to or an unreasonable
application of clearly established federal law as determined by the Supreme Court.”
Evans, 875 F.3d at 217.
Analysis
I.

Non-Cognizable Claims [Grounds 1. 2. and 31
Turcios’s first ground for relief is an attack not on the underlying state criminal

proceeding (his trial and direct appeal) but on the sufficiency of the state habeas
proceeding. He complains that the court in that proceeding both failed to apply state
and federal law to resolve his petition and failed to hold an evidentiary hearing. See,
e.g., Dkt. No. 3 at 6. But this ground for relief is not cognizable in a Section 2254
proceeding. As the United States Court of Appeals for the Fifth Circuit has observed,
“[a] long line of cases from our circuit dictates that ‘infirmities in state habeas
proceedings do not constitute grounds for relief in federal court.’ That is because an
attack on the state habeas proceeding is an attack on a proceeding collateral to the
detention and not the detention itself.” Rudd v. Johnson, 256 F.3d 317, 319-20 (5th Cir.
2001) (quoting Trevino v. Johnson, 168 F.3d 173, 180 (5th Cir. 1999); citations
omitted); cf. Bass v. Dretke, 82 F. App’x 351, 354-55 (5th Cir. 2003) (per curiam)
(“Simply put, deference is not dependent upon the existence of a full and fair hearing
-7-

Case 3:16-cv-02809-N-BN

Document 25 Filed 06/07/18

Page 8 of 23 PagelD 243

in the state habeas proceeding.” (relying on Valdez v. Cockrell, 274 F.3d 941, 951 (5th
Cir. 2001)); footnote omitted).
The second ground for relief is that the indictment in Fl 1-70866 was defective
because it failed to allege both a culpable mental state and the person assaulted. See,
e.g., Dkt. No. 3 at 6. This attack, aimed at the elements presented in an indictment,
also is not cognizable. “The sufficiency of a state indictment is not a matter for federal
habeas relief unless it can be shown that the indictment is so defective that it deprives
the state court of jurisdiction,” McKay v. Collins, 12 F.3d 66, 68 (5th Cir. 1994) (citing
Branch v. Estelle, 631 F.2d 1229 (5th Cir. 1980)); accord Alexander v. McCotter, 775

F.2d 595, 598 (1985).
For an indictment to be “fatally defective,” no circumstances can exist
under which a valid conviction could result from facts provable under the
indictment. Morlett v. Lynaugh, 851 F.2d 1521, 1523 (5th Cir. 1988).
State law determines whether an indictment is sufficient to vest
jurisdiction in the state trial court. Wi 11 i ams v. Col I i ns, 16 F.3d 626, 637
(5th Cir. 1994). Under Texas law, “indictments charging a person with
committing an offense, once presented, invoke the jurisdiction of the trial
court and jurisdiction is no longer contingent on whether the indictment
contains defects of form or substance.” Teal v. State, 230 S.W.3d 172, 177
(Tex. Crim. App. 2007). [Even the] “failure to allege an element of an
offense in an indictment or information is a defect of substance,” as
opposed to one of jurisdiction. Studer v. State, 799 S.W.2d 263, 268 (Tex.
Crim. App. 1990). As acknowledged in Studer, if omitting an element
from an indictment is a defect of substance in an indictment, it naturally
follows that the indictment is still an indictment despite the omission of
that element. I d.
Fields v. Thaler, Civ. A. No. H-ll-0515, 2012 WL 176440, at *6-*7 (S.D. Tex. Jan. 20,
2012).
Turcios has not shown that the state indictment he attacks was “so defective”
-8-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 9 of 23 PagelD 244

as to deprive the “state court of jurisdiction.” McKay, 12 F.3d at 68.
The state habeas court, moreover, addressed the merits of this argument:
15.

16.

The indictment reads as follows:
said Defendant did then and there unlawfully,
intentionally and knowingly enter a habitation
without the effective consent of MARIA PEREZ, the
owner thereof, and did then and there commit a
felony other than theft, namely, ASSAULT FAMILY
VIOLENCE IMPEDE BREATHING/CIRCULATION,
The gravamen of the offense is the nonconsensual entry, not the
assault. Therefore, the indictment does not need to allege the
elements of assault, just the elements of burglary. The indictment
alleges all the elements of burglary. A motion to quash would have
been futile. An indictment charging one offense during the
commission of another crime need not allege the elements of the
latter offense. Hammett v. State, 578 S.W.2d 699, 707-08 (Tex.
Crim. App. 1979).

Dkt. No. 12-1 at 43.
And, by denying Turcios’s state habeas application without a written order, the
CCA, the highest state court, has indicated “that the indictment is sufficient, so
[Turcios’s] claim is thus not cognizable under § 2254.” Odham v. Scott, 56 F.3d 1384
(table), 1995 WL 337647, at *2 (5th Cir. May 15, 1995) (per curiam) (citing Alexander,
775 F.2d at 599; McKay, 12 F.3d at 68).
Turcios’s third ground for relief - separate from a later ground that could be
interpreted as directly challenging one of his guilty pleas - is that the evidence was
insufficient to support his assault conviction, because his plea and judicial confession
both lacked the element of intent and the name of his victim. See, e.g., Dkt. No. 3 at 7.
But this claim is precluded by his decision to plead guilty. See Smith v. McCotter, 786
F.2d 697, 702-03 (5th Cir. 1986) (“‘No federal constitutional issue is raised by the
-9-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 10 of 23 PagelD 245

failure of the Texas state court to require evidence of guilt corroborating a voluntary
plea.’ The Jackson v. Virginia, 443 U.S. 307 (1979), mandate that sufficient evidence
exist from which a rational fact finder could find guilt beyond a reasonable doubt is
inapplicable to convictions based on a guilty plea.” (quoting Baker v. Estel le, 715 F.2d
1031, 1036 (5th Cir. 1983); citing Kelley v. Alabama, 636 F.2d 1082, 1083-84 (5th Cir.
Feb. 1981))); see also Tristan v. Stephens, No. 3:12-cv-2828-P-BK, 2013 WL 4561331,
at *3 (N.D. Tex. Aug. 28, 2013) (further noting that, “under Texas state law, a judicial
confession is sufficient evidence of guilt in a felony criminal case in which a defendant
enters a guilty plea” (citing Men efeev. State, 287 S.W.3d 9,13 (Tex. Crim. App. 2009)));
Wisener v. Thaler, No. 4:09-cv-359-Y, 2010 WL 546738, at *4 (N.D. Tex. Feb. 17, 2010)
(“[T]o the extent [that the petitioner] complains ... that there was insufficient evidence
to support his conviction,... [a] matter[ ] unrelated to the voluntariness of his plea, the
claim[ is] nonjurisdictional and [is] waived by the plea.” (citing United States v. Broce,
488 U.S. 563, 573-74 (1989))).
II.

Guilty Plea/Due Process Challenges [Grounds 6. 7. and 101
Turcios’s sixth ground for relief is that the trial court erred (1) by accepting his

plea when there was no evidence to support the plea - again contending that the
indictment failed to allege intent and the victim’s name; (2) by incorrectly admonishing
him as to the range of punishment in the aggravated-assault proceeding [Fl 1-70896-P];
(3) by allowing victim-impact testimony; and (4) by delaying, for 7 months, the
appointment of counsel for Turcios’s direct appeal. See, e.g., Dkt. No. 3 at 8.
Trial court errors alleged to have violated a habeas petitioners constitutional
-10-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 11 of 23 PagelD246

right to due process, for example, can sound in habeas relief, but “the Supreme Court
[has] held that a federal habeas court may not grant relief on trial errors unless the
petitioner demonstrates that the error ‘had a substantial and injurious effect or
influence in determining the jury’s verdict.’” Mayabb v. Johnson, 168 F.3d 863, 868
(5th Cir. 1999) (quoting Brecht v. Abrahamson, 507 U.S. 619, 637-38 (1993)). “Under
Brecht, a constitutional trial error is not so harmful as to entitle a defendant to habeas
relief unless there is more than a mere reasonable possibility that it contributed to the
verdict. It must have had a substantial effect or influence in determining the verdict.”
Id. (quoting Wood sv. Johnson, 75F.3d 1017,1026-27 (5th Cir. 1996); bracket omitted).
First, the indictment was not defective, for the reasons set out above.
Second, although Turcios was incorrectly admonished orally that his
punishment range was 5-99 years or life confinement, see Dkt. No. 12-1 at 5, as the
state habeas court found,
[t]he written admonitions contain the correct punishment and were
signed by [Turcios. Turcios was admonished, although incorrectly by the
Court, 'and was sentenced within the proper range. This is considered
substantial compliance with [state law. Turcios] has failed to show he
entered his guilty plea without understanding the consequences of his
action and that he suffered harm.
Dkt. No. 12-1 at 63 (citations omitted).
The state trial judge admitted to the incorrect oral admonishment. But “[a] state
court’s failure to follow its own procedural rules does not of itself raise a federal
constitutional question cognizable in a habeas corpus proceeding. To rise to the level
of a federal due process violation, the state trial judge’s incorrect admonishment must

-11-

Case 3:16-CV-02809-N-BN Document 25 Filed 06/07/18

Page 12 of 23 PagelD 247

somehow affect the knowing and voluntary character of the plea.” Hill v. Estelle, 653
F.2d 202, 205 (5th Cir. Unit A Aug. 1981) (per curiam) (citations omitted). And, “[e]ven
if misinformed about the maximum possible sentence, the defendant’s plea is not to be
set aside as involuntary if he receives a sentence less than the law permitted or less
than the defendant was informed that the court could impose.” I d. (citations omitted).
Here, where Turcios was given a sentence that was less than the maximum
possible sentence announced in the incorrect oral admonishment and where Turcios
has not alleged how the incorrect oral admonishment harmed him - or shown, for the
reasons discussed below, that his plea was not knowing voluntary — Turcios fails to
show that the error was substantial enough to warrant federal habeas relief as a due
process violation. Cf. Chiles v. Johnson, No. 3:00-cv-2445-L, 2001 WL 1042736, at *4
(N.D. Tex. June 19, 2001) (“Chiles cannot show that there was a constitutional
violation because he was sentenced to a term of punishment of 15 years - less than the
20 year maximum he was facing or the 99 years or life that he originally thought he
was facing. Petitioner is not entitled to relief on this claim.”), rec. accepted as modified
2001 WL 1042735 (N.D. Tex. Aug. 30, 2001).
Third, the state habeas court determined, based on state law, that
“[v]ictim-impact evidence may be admissible at the punishment phase when that
evidence has sole bearing on the defendant’s personal responsibility or moral
culpability” — a determination that the CCA upheld. Dkt. No. 12-1 at 45 (citations
omitted); see also, e.g., Ray v. Director, TDCJ-Cl D, No. 4:05cv468, 2009 WL 801770, at
*4 (E.D. Tex. Mar. 24, 2009) (“The Texas Code of Criminal Procedure provides that
-12-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18 c Page 13 of 23 PagelD 248

evidence may be offered by the State as to any matter the Court deems relevant to
sentencing, including, but not limited to, prior criminal record, general reputation,
character, and any other evidence of extraneous crimes or bad acts that is shown
beyond a reasonable doubt to have been committed by the defendant regardless of
whether he has previously been charged with or finally convicted of the crime or act.”
(citing Tex. Code Crim. Proc. Ann. art. 37.07 § 3(a))).
For these reasons, Turcios’s habeas-proceeding due process claim based on
punishment-phase admission of the victim-impact testimony fails - a federal “court
must defer to the state courts’ ruling that [the victim’s] testimony was admissible
under the state’s evidentiary law.” Thompson v. Thaler, 432 F. App’x 376, 379 (5th Cir.
2011) (per curiam) (citing Charles v. Thaler, 629 F.3d 494, 500-01 (5th Cir. 2011) (“A
federal court lacks authority to rule that a state court incorrectly interpreted its own
law. When, as here, a state court’s legal conclusions are affirmed by the highest court
in that state, those conclusions are state law.”); Schaetzl e v. Cockrel 1,343 F.3d 440, 449
(5th Cir. 2003) (“It is not our function as a federal appellate court in a habeas
proceeding to review a state’s interpretation of its own law.” (quoting Weeks v. Scott,
55 F.3d 1059, 1063 (5th Cir. 1995)))).
As to the fourth and final due-process-based claim, the Dallas Court of Appeals
considered the impact of the delayed appointment of new appellate counsel for
Turcios’s direct appeal and found that he was not prejudiced by the alleged absence of
counsel. See Turcios, 2013 WL 5536939, at *2-*4. Because that court’s thorough
consideration of this issue is neither contrary to clearly-established federal law nor
-13- ’

\

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 14 of 23 PagelD 249

unreasonable in light of the applicable record, Turcios fails to show that, under this
ground, he is entitled to habeas relief.
Turcios’s seventh ground for relief is a more direct challenge to his guilty plea
in F11-70896-P - that the plea was not knowing and voluntary because he lacked
knowledge of the applicable punishment range and that a keychain screwdriver
qualified as a deadly weapon. See, e.g., Dkt. No. 3 at 8; see also Dkt. No. 12-1 at 47
(framing the deadly-weapon component of the claim, as presented to the state habeas
courts, as: “Turcios complains that he was not admonished as to his eligibility for
parole and the affect of an affirmative finding of a deadly weapon.”).
First, for the reasons discussed above, Turcios knew the applicable punishment
range.
As to the alleged lack of a deadly-weapon admonishment, a guilty plea is valid
only if entered voluntarily, knowingly, and intelligently, “with sufficient awareness of
the relevant circumstances and likely consequences.” Bradshaw v. Stumpf, 545 U.S.
175, 183 (2005). A plea is intelligently made when the defendant has “real notice of the
true nature of the charge against him.” Bousley v. United States, 523 U.S. 614, 618
(1998) (internal quotation marks omitted). And a plea is “voluntary” if it does not result
from force, threats, improper promises, misrepresentations, or coercion. See United
States v. Amaya, 111 F.3d 386, 389 (5th Cir. 1997).
The United States Court of Appeals for the Fifth Circuit has identified three core
concerns in a guilty plea proceeding: (1) the absence of coercion; (2) the defendant’s full
understanding of the charges; and (3) the defendant’s realistic appreciation of the
-14-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 15 of 23 PagelD 250

consequences of the plea. See United States v. Gracia, 983 F.2d 625, 627-28 (5th Cir.
1993). These core concerns are addressed by the admonishments contained in article
26.13 of the Texas Code of Criminal Procedure. See, e.g., Ojena v. Thaler, No. 3:10-cv2601-P-BD, 2011WL4048514, at *1 &n.l (N.D. Tex. Aug. 25, 2011), rec. adopted, 2011
WL 4056162 (N.D. Tex. Sept. 12, 2011). “Nonetheless, the issue of whether the state
trial court followed the statute is nondispositive. Instead, a guilty plea will be upheld
on habeas review if it is entered into knowingly, voluntarily and intelligently.”
Dominguez v. Director, TDCJ-CID, No. 6:14cv49, 2014 WL 2880492, at *3 (E.D. Tex.
June 23, 2014) (citing Montoya v. Johnson, 226 F.3d 399, 405 (5th Cir. 2000); James
v. Cain, 56 F.3d 662, 666 (5th Cir. 1995)).
Most applicable to the instant claim, “[t]he ‘knowing’ requirement that a
defendant ‘understands the consequences of a guilty plea’ means only that the
defendant understands the maximum prison term and fine for the offense charged.’”
Id. (quoting Abies v. Scott, 73 F.3d 591, 592 n.2 (5th Cir. 1996) (citing, in turn, United
States v. Rivera, 898 F.2d 442, 447 (5th Cir. 1990)); cf. Ex parte Huskins, 176 S.W.3d
818, 821 (Tex. Crim. App. 2005) (en banc) (“While a deadly-weapon finding does affect
a defendant’s eligibility for probation and parole, it does not alter the range of
punishment to which the defendant is subject, or the number of years assessed.”
(footnote omitted)). And “[a] guilty plea is not involuntarily or unintelligently entered
because the defendant is not informed of all the possible collateral consequences
flowing from the conviction” — including parole eligibility. Dominguez, 2014 WL
2880492, at*3(ciitingLeBlancv. Henderson, 478F.2d481,483 (5th Cir. 1973)); see also
-15-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 16 of 23 PagelD 251

Hinkle v. Quarterman, No. A-06-CA-956-Y, 2007 WL 4289997, at *8 (W.D. Tex. Dec.
4, 2007) (“The law did not require that Petitioner be informed ... that the deadly
weapon finding would prohibit his eligibility for parole for at least 30 years.” (citations
omitted)).
Turcios’s tenth ground for relief is that the State failed to disclose its intent to
introduce - and that the State did introduce - a victim-impact statement and
extraneous-offense evidence. See, e.g., Dkt. No. 3 at 9. Like the similar due process
claim discussed above, this claim boils down to Turcios’s complaining that the State
and the state trial court violated state law, see TEX. CODE CRIM. PROC. Ann. art. 37.07
§ 3(a), and it fails for the same reason, see, e.g., Schaetzle, 343 F.3d at 449 (“It is not
our function as a federal appellate court in a habeas proceeding to review a state’s
interpretation of its own law.” (quoting Weeks, 55 F.3d at 1063)).
III.

Ineffective Assistance of Counsel [Grounds 4, 5, 8. and 101
The Court reviews Sixth Amendment claims concerning the alleged ineffective

assistance of counsel (“LAC”), whether at trial or on direct appeal, under the two-prong
test established in Strickland v. Washington, 466 U.S. 668 (1984). See Smith v.
Robbins, 528 U.S. 259, 285 (2000) (“the proper standard for evaluating [a] claim that
appellate counsel was ineffective ... is that enunciated in Strickland” (citing Smith v.
Murray, 477 U.S. 527, 535-36 (1986))).
Under Strickland, a habeas petitioner must demonstrate that the performance
of his attorney fell below an objective standard of reasonableness, see 466 U.S. at 68788. To be cognizable under Strickland, trial counsel’s error must be “so serious that
-16-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 17 of 23 PagelD 252

counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Id. at 687; see also Buck v. Davis, 580 U.S.

, 137 S. Ct. 759, 775

(2017) (reaffirming that “[i]t is only when the lawyer’s errors were ‘so serious that
counsel was not functioning as the “counsel” guaranteed ... by the Sixth Amendment’
that Strickland’s first prong is satisfied” (citation omitted)).
The petitioner also must prove that he was prejudiced by his attorney’s
substandard performance. See Strickland, 466 U.S. at 687,692. “This requires showing
that counsel’s errors were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable.” Id. at 687.
[Bjecause of the risk that hindsight bias will cloud a court’s review of
counsel’s trial strategy, “a court must indulge a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional
assistance; that is, the defendant must overcome the presumption that,
under the circumstances, the challenged action might be considered
sound trial strategy.”
Feldman v. Thaler, 695 F.3d 372, 378 (5th Cir. 2012) (quoting Strickland, 466 U.S. at
689).
“A conscious and informed decision on trial tactics and strategy cannot be the
basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that
it permeates the entire trial with obvious unfairness.” Cotton v. Cockrel 1,343 F.3d 746,
752-53 (5th Cir. 2003). Moreover,“[j]ust as there is no expectation that competent
counsel will be a flawless strategist or tactician, an attorney may not be faulted for a
reasonable miscalculation or lack of foresight or for failing to prepare for what appear
to be remote possibilities.” Richter, 562 U.S. at 110. “The Supreme Court has

-17-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 18 of 23 PagelD 253

admonished courts reviewing a state court’s denial of habeas relief under AEDPA that
they are required not simply to give [the] attorney’s the benefit of the doubt, ... but to
affirmatively entertain the range of possible reasons [petitioner’s] counsel may have
had for proceeding as they did.” Clark v. Thaler, 673 F.3d 410, 421 (5th Cir. 2012)
(internal quotation marks omitted).
Therefore, on habeas review under AEDPA, “if there is any ‘reasonable
argument that counsel satisfied Strickland’s deferential standard,’ the state court’s
denial must be upheld.” Rhoades v. Davis, 852 F.3d 422, 432 (5th Cir. 2017) (quoting
Richter, 562 U.S. at 105).
To demonstrate prejudice, a habeas petitioner “must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at 694. Thus,
“the question is not whether a court can be certain counsel’s performance had no effect
on the outcome or whether it is possible a reasonable doubt might have been
established if counsel acted differently.” Richter, 562 U.S. at 111. “Instead, Strickland
asks whether it is ‘reasonably likely’ the result would have been different,” which “does
not require a showing that counsel’s actions ‘more likely than not altered the outcome,’
but the difference between Strickland’s prejudice standard and a moreprobable-than-not standard is slight and matters ‘only in the rarest case.” Id. at 111-12
(quoting Strickland, 466 U.S. at 693, 696, 697). “The likelihood of a different result
must be substantial, not just conceivable.” Richter, 562 U.S. at 112.
-18-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 19 of 23 PagelD 254

IAC claims are considered mixed questions of law and fact and are therefore
analyzed under the “unreasonable application” standard of 28 U.S.C. § 2254(d)(1). See
Gregory v. Thaler, 601 F.3d 347, 351 (5th Cir. 2010). Where the state court adjudicated
ineffective-assistance claims on the merits, this Court must review a habeas
petitioner’s claims under the “doubly deferential” standards of both Strickland and
Section 2254(d). Cullen v. Pinholster, 563 U.S. 170,190, 202 (2011); see also Rhoades,

852 F.3d at 434 (“Our federal habeas review of a state court’s denial of an
ineffective-assistance-of-counsel claim is ‘doubly deferential’ because we take a highly
deferential look at counsel’s performance through the deferential lens of § 2254(d).”
(citation omitted)).
In such cases, the “pivotal question” for this Court is not “whether defense
counsel’s performance fell below St r i ckI and’s standard”; it is “whether the state court’s
application of the Strickland standard was unreasonable.” Richter, 562 U.S. at 101; see
also id. at 105 (“Establishing that a state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult. The standards created by
Strickland and § 2254(d) are both ‘highly deferential,’ and when the two apply in
tandem, review is ‘doubly’ so.” (internal quotation marks and citations omitted)).
In other words, AEDPA does not permit a de novo review of state counsel’s
conduct in these claims under Strickland. See id. at 101-02. Instead, on federal habeas
review of a claim that was fully adjudicated in state court, the state court’s
determination is granted “a deference and latitude that are not in operation when the
case involves review under the Strickland standard itself.” Id. at 101; see also Woods
-19-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 20 of 23 PagelD 255

., 136 S. Ct. 1149, 1151 (2016) (per curiam) (explaining that

v. Etherton, 578 U.S.

federal habeas review of ineffective-assistance-of-counsel claims is “doubly deferential”
“because counsel is ‘strongly presumed to have rendered adequate assistance and made
all significant decisions in the exercise of reasonable professional judgment”’; therefore,
“federal courts are to afford ‘both the state court and the defense attorney the benefit
of the doubt’” (quoting Burt, 571 U.S. at 22, 15)); Johnson v. Secy, DOC, 643 F.3d 907,
910-11 (11th Cir. 2011) (“Double deference is doubly difficult for a petitioner to
overcome, and it will be a rare case in which an ineffective assistance of counsel claim
that was denied on the merits in state court is found to merit relief in a federal habeas
proceeding.”).

1

Turcios first claims that his trial counsel, Paul Johnson, violated his right to
effective assistance by failing to move to quash an indictment that failed to allege
intent and a victim and, relatedly, by failing to move for a directed verdict or lesserincluded offense. See, e.g., Dkt. No. 3 at 7. Turcios further argues that Johnson violated
his Sixth Amendment right to effective counsel by (1) failing to call an investigator who
had unearthed discrepancies in the victim’s narrative; (2) failing to advise Turcios
properly as the deadly-weapon finding; (3) failing to inform the trial court of the
incorrect punishment range; and (4) failing to object to the State’s failure to disclose
its intent to introduce - and the State’s introduction of — a victim-impact statement
and extraneous-offense evidence. See, e.g., id. at 7, 9.
Turcios further claims that his appellate counsel, Matthew J. Kita, rendered
constitutionally ineffective assistance by (1) failing to raise on direct appeal that
-20-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 21 of 23 PagelD 256

Johnson violated Turcios’s Sixth Amendment right to effective assistance - where
Johnson neither moved to dismiss the indictment nor challenged the judicial confession
and (2) failing to file a motion for a new trial and arrest of judgment based on the
alleged defects in the indictment. See, e.g., Dkt. No. 3 at 7.
Some of these IAC claims may be waived by Turcios’s knowing and voluntary
guilty pleas. See, e.g., Scott v. Wainwright, 698 F.2d 427, 429 (11th Cir. 1983) (“Once
a plea of guilty has been entered, nonjurisdictional challenges to the conviction’s
constitutionality are waived, and only an attack on the voluntary and knowing nature
of the plea can be sustained.” (citing McMann v. Richardson, 397 U.S. 759 (1970);
Bradbury v. Wainwright, 658 F.2d 1083, 1087 (5th Cir. Oct. 1981))).
/

But, to the extent that each claim is not and, rather, was properly exhausted in
the state habeas proceedings - and therefore not now procedurally defaulted — the
state habeas court obtained affidavits from both Mr. Johnson and Mr. Kita. See Dkt.
No. 12-1 at 50, 51-52, & 65-66. That court then developed a record and made credibility
determinations, choosing to accept counsel’s sworn testimony. See id. at 42, 44, & 49.
The credibility determinations, underlying the CCA’s ultimate denial of the IAC
claims, make it even more difficult for Turcios to obtain Section 2254 relief as to these
claims. See Pippin v. Dretke, 434 F.3d 782, 792 (5th Cir. 2005) (“A trial court’s
credibility determinations made on the basis of conflicting evidence are entitled to a
strong presumption of correctness and are ‘virtually unreviewable’ by the federal
courts.” (quoting Moorev. Johnson, 194 F.3d 586, 605 (5th Cir. 1999))).
The undersigned has reviewed the state habeas court’s findings and conclusions
-21-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 22 of 23 PagelD 257

as to the IAC claims, see Dkt. No. 12-1 at 39-52 & 60-65, and, because not one amounts
“to an unreasonable application of Stri ckl and or an unreasonable determination of the
evidence,” Garza v. Stephens, 738 F.3d 669, 680 (5th Cir. 2013) (citing 28 U.S.C. §
2254(d)(l)-(2)), Turcios fails to show that his Sixth Amendment right to effective
counsel was violated.
As a consequence, the state habeas court necessarily determined that Turcios’s
guilty pleas were voluntary. And he has not shown that this determination is
unreasonable by showing “that there is a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would have insisted on going to trial.”
Hill v. Lockhart, 474 U.S. 52, 59 (1985); cf. Bass v. Morgan, 653 F. App’x 299, 302 (5th
Cir. 2016) (per curiam) (“Bass has not shown prejudice because he has not shown ‘that
there is a reasonable probability that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to trial.’ Thus, Bass has not shown
that the state court’s decision was contrary to or an unreasonable application of
St r i ck I an d or an unreasonable determination of facts in light of the evidence presented
in the state court proceeding.” (citations omitted).
IV.

Cruel and Unusual Punishment [Ground 91
Finally, Turcios asserts that his 20-year sentence amounts to cruel and unusual

punishment. See, e.g., Dkt. No. 3 at 9. The Dallas Court of Appeals rejected Turcios’s
claim that he should not be confined because of his medical conditions, see Turcios,
2013 WL 5536939, at *3 - a determination that Turcios has not shown is unreasonable
under the applicable review standards. And, to the extent that the current claim differs
-22-

Case 3:16-cv-02809-N-BN Document 25 Filed 06/07/18

Page 23 of 23 PagelD 258

- that is, if Turcios now also (or alternatively) claims that TDCJ cannot or has not
treated his medical conditions - such a claim should be made in a civil rights action,
not through a habeas petition.
Recommendation
The Court should deny the application for a writ of habeas corpus.
A copy of these findings, conclusions, and recommendation shall be served on all
parties in the manner provided by law. Any party who objects to any part of these
findings, conclusions, and recommendation must file specific written objections within
14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); FED. R. Crv. P. 72(b).
In order to be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and
specify the place in the magistrate judge’s findings, conclusions, and recommendation
where the disputed determination is found. An objection that merely incorporates by
reference or refers to the briefing before the magistrate judge is not specific. Failure
to file specific written objections will bar the aggrieved party from appealing the
factual findings and legal conclusions of the magistrate judge that are accepted or
adopted by the district court, except upon grounds of plain error. See Douglass v.
United Servs. Auto. Ass-n, 79 F.3d 1415, 1417 (5th Cir. 1996).
DATED: June 7, 2018

DAVID L. HORAN
UNITED STATES MAGISTRATE JUDGE
-23-

Additional material
from this filing is
available in the
Clerk's Office.

